DIVISION OF SUPERVISION CASE MANAGER PROGRAM –
Views of Those Who Are Implementing It

Office of Inspector General
Office of Congressional Relations and Evaluations
March 31, 1999
Evaluation Report No. 99-003




                                         CONTENTS

                                         Letter from the Director                             1
                                         Overview of Case Manager Program                     3
                                         Objectives, Scope, and Methodology                   6
                                         Case Managers Viewed Concept Favorably               8
                                         Case Managers Concerned About Workload              11
                                         51% of Case Managers Saw Need for Application
                                         Specialist                                          13
                                         Case Managers Concerned About Quarterly LIDI
                                         Review Process                                      16
                                         Final Thoughts                                      20
                                         Corporation Response and OIG Evaluation             21
                                         Appendix I: Corporation Comments                    22
                                         Appendix II: Management Response to
                                         Recommendations                                     25
                                         Appendix III: Summary Data About Case Managers
                                         Interviewed                                         26
                                         Appendix III: Case Managers’ Principal Duties and
                                         Responsibilities                                    27
                                                          Congressional Relations and Evaluations
                                                                       Office of Inspector General




LETTER FROM THE DIRECTOR
Date: March 31, 1999

To:   James L. Sexton
      Director, Division of Supervision


In 1994, the Division of Supervision (DOS) began looking at different ways to
keep pace with the changes in the banking industry. The Case Manager
Program was one of the initiatives undertaken by DOS to improve the
Corporation’s ability to assess and respond to risk. The primary goal of the Case
Manager Program was to significantly enhance risk assessment and supervision
activities by assigning responsibility and accountability for a caseload of
institutions or companies to one individual, regardless of charter and location,
and by encouraging a more proactive, but non-intrusive, coordinated supervisory
approach. DOS implemented the program in April 1997.

We initiated this review to learn how the Case Manager Program was working.
Our ultimate objective was to identify issues that may warrant further review or
management attention. In our view, the most direct way to learn about the
program was to interview those primarily responsible for implementing the
program - regional office management and case managers. We met with
regional management and selected case managers in all of DOS's regional
offices. Specifically, we met with 53 case managers responsible for 46% of the
large insured depository institutions (LIDIs).

Of the case managers we interviewed, 85% viewed the Case Manager Program
favorably. Officials interviewed believed the case manager concept made sense
in light of the consolidation ongoing in the industry. In sum, case managers
believed that the program enhances the Corporation’s ability to assess risk and
proactively direct supervisory activity, particularly for large insured depository
institutions. For smaller institutions, officials said the benefits of the case
manager approach were less evident.

Despite the overall positive comments, 47% of those case managers we
interviewed said it was difficult to effectively manage their caseloads because of
competing responsibilities. Workload was a concern. A manageable workload
was viewed as a critical factor to the success of the program when the concept
was envisioned. In particular, case managers interviewed raised concerns about
two areas of their responsibility - applications and preparation of quarterly LIDI
reviews. Some case managers said processing applications took a considerable
amount of their time and limited their ability to focus on risk and supervisory
issues. Some case managers also questioned whether the LIDI reviews, as
presently structured, resulted in a useful product for management.

We recognized that:

•   the Case Manager Program was relatively new and still evolving.
•   regional management and Washington Office officials were aware of many of
    the issues raised by the case managers.
•   DOS had several initiatives underway that may address many of the issues
    raised by the case managers we interviewed.

Nonetheless, given the reliance the Corporation places upon case managers to
assess risk and direct supervisory activity, we believed it was important that DOS
pause to consider the issues raised by the case managers. The intent of this
report was to share the views we obtained from case managers and regional
management.

Further, based on those views, we made three recommendations to DOS. On
March 29, 1999, you responded to our recommendations. The response
provided the requisite elements of a management decision for each of the
recommendations. Your written response is included in its entirety in Appendix I.
Appendix II presents our assessment of your responses to the recommendations
and shows that we have a management decision for each of the
recommendations.




Stephen M. Beard
Director, Office of Congressional Relations and Evaluations
Office of Inspector General




                                               2
 Overview of Case Manager Program


  The business of banking is becoming increasingly complex, and the competitive landscape is
  undergoing rapid change. The nature and scope of risk within the banking and financial services
  industry is changing as a result.

  -Former FDIC Chairman


In 1994, the issue of banking structure demanded FDIC’s attention. Specifically,
it faced the task of adapting to the new interstate-banking environment created
by the Riegle-Neal Interstate Banking and Branching Efficiency Act of 1994,
which Congress enacted earlier that year. FDIC realized the traditional approach
to banking supervision needed enhancement so that it would be able to respond
to new and emerging risks more quickly and more effectively. Accordingly, in
1994, DOS began evaluating its business processes and created the Process
Redesign Committee (committee) which included personnel from Washington,
the regions, and field offices.

The committee focused on the need to restructure how work was performed in
the regional and Washington offices. Specifically, the committee undertook a
“grass roots” review of risk assessment and supervisory activity processes in
DOS. As the committee began looking at DOS’s work processes, it became
apparent that not only was there a lack of uniformity from region to region, but at
both the regional and Washington Office levels, work processes were often
fragmented.

DOS traditionally handled supervision matters on a geographic basis. In
addition, in many instances, DOS divided supervision work related to one insured
institution according to function, among three or more review examiners or
analysts. For example, for one bank, a review examiner would handle
examination report processing and corrective programs, another would conduct
offsite financial analysis, and another would process applications. Moreover,
most of DOS’s substantive offsite analysis was conducted by banking analysts
not directly involved in the processing of other supervisory matters, such as
planning supervisory strategies or processing examination reports. DOS
concluded that this fragmented approach tended to limit the desired proactive
and coordinated approach for planning regulatory strategy.

Under the case manager concept, DOS would not assess risk on the individual
institution. Rather, DOS would assess risk for the institution in the context of all
entities related to the institution without regard to institution class or region, and a
single individual would assess that risk.



                                                       3
The committee envisioned that the case manager approach would establish a
more comprehensive, proactive, and ongoing assessment of the risk that an
institution posed to the insurance fund and the risk to institutions resulting from
holding company or chain relationships. It was also envisioned that case
managers would take a more active role in the oversight of state member banks,
national banks, and thrifts by establishing strong coordination efforts and
communication channels with the respective federal and state regulators.

In essence, under the case manager concept, the existing responsibilities of
safety and soundness and application review examiner, and senior banking
analyst positions were consolidated into the case manager position. Specifically,
FDIC regional office responsibilities were realigned so that one individual in a
designated FDIC regional office supervised or monitored all the institutions that
constituted a group of related institutions, regardless of charter or location. The
new approach was intended to make the monitoring of banks and their affiliates
more effective and efficient, and provide institutions and other regulators with a
single point of contact at FDIC.

DOS implemented the Case Manager Program in April 1997. When the program
was envisioned, the former FDIC Chairman stressed that this initiative, along with
others, was not intended to abandon or to alter dramatically FDIC’s examination
philosophy, policies, or procedures. Rather, the initiatives were designed to
strengthen and build on existing procedures.




                                              4
Evolution of the Case Manager



1. Review Examiner
   Safety and Soundness Duties:
       • Review Report of Examination
       • Prepare and review correspondence
       • Draft and coordinate enforcement
           actions
       • Coordinate resolution of problem banks
                                                      Case Manager

2. Senior Banking Analyst
   Offsite Analysis Duties:
       • Review CAEL differences
       • Analyze Growth Monitoring
           System exceptions
       • Prepare quarterly financial analysis
       • Assign risk-based premium categories




3. Application Specialist
   Applications Duties:
      • Process 26 application types
      • Review applications
      • Obtain additional
           documentation
      • Prepare application decisions




                                                  5
    Objectives, Scope, and Methodology

Given the significant role of the case manager in DOS’s supervisory process, the
OIG initiated this review. The objectives of our review were to learn how regional
offices implemented the Case Manager Program and gauge regional
management and case managers’ views on how well the program was achieving
its objectives. In essence, we sought officials' opinions about how this program
was working. Our ultimate objective was to identify issues that may warrant
further review or management attention to ensure the success of the program.

To accomplish our objectives, we reviewed background material, relevant policies
and procedures, and interviewed DOS personnel in the Washington Office.
Specifically, we reviewed the Case Managers Procedures Manual and
documentation from Process Redesign Committee files. We also met with
Washington Office officials in DOS’s Offices of Administration, Policy and Program
Development, and Operations to discuss the program development and goals.

To ensure we obtained a national perspective of the program, we interviewed
case managers in all of DOS’s regional offices – Atlanta, Boston, Chicago,
Dallas, Kansas City, Memphis, New York, and San Francisco. We used the
Case Load Summary report from the Case Manager Administration System to
judgmentally select case managers from each region.

The Case Load Summary lists the case managers' name and summary data
about the case managers’ workload by region. The report identifies the:

•    Total number of cases.
•    Number of cases with assets greater than $3 billion (LIDIs).
•    Total number of institutions.
•    Number of institutions with assets greater than $1 billion.
•    Total assets for the cases.
•    Number of institutions with marginal ratings.

We were particularly interested in talking with case managers that were
responsible for LIDIs. Therefore, we judgmentally selected case managers
responsible for those types of institutions. Because we primarily met with case
managers responsible for large institutions, we recognized that we may not have
captured the views of all case managers. We also met with Regional Directors,
Deputy Regional Directors, and Assistant Regional Directors. Appendix III
identifies the number of case managers we met with in each of the regions and
selected summary information about their caseloads.




                                               6
In our interviews with case managers, we discussed the following:

   •   The case manager’s overall opinion of the Case Manager Program.
   •   The transition process from review examiner to case manager.
   •   The case manager’s responsibilities including the responsibility for
       processing applications, reviewing examination reports, and performing
       off-site monitoring.
   •   Coordination and communication with the Washington Office and field
       offices.
   •   Coordination and communication with other regulators including the Board
       of Governors of the Federal Reserve System (Federal Reserve), Office of
       the Comptroller of the Currency (OCC), Office of Thrift Supervision (OTS),
       and state regulatory agencies.
   •   Coordination and communication with the banks.

Interviews with case managers, regional and Washington Office officials were the
primary source for the review results. We did not analyze specific cases or test
compliance with policies and procedures. We discussed the results of our
interviews with regional management and Washington Office officials.

We conducted our review from August to December 1998 according to the
President’s Council on Integrity and Efficiency’s Quality Standards for
Inspections.




                                             7
    Case Managers Viewed Concept Favorably


The case manager concept provides FDIC with the structure to deal with the changing industry and
focus on risk assessment.
                               Case Managers' View of Program
-Assistant Regional Director             Positive   Negative

                                   15%




                                                           85%

                Source: OIG analysis of case manager responses

Of the case managers we
                                         Case managers know more about institutions in
interviewed, 85% were proponents of      their portfolio and, accordingly, are in a better
the concept. These case managers         position to control the supervisory strategies. This
believed the program was working in      is especially true for large banking organizations.
line with the envisioned goals-–
enhancing risk assessment,               -Case Manager
encouraging a more coordinated
proactive supervisory strategy, and improving communication with other
regulators. Regional management in all offices also viewed the program
favorably. Nonetheless, 15% of case managers viewed the program negatively.
These case managers believed the program diminished FDIC's expertise, the job
was too much for one person, or smaller institutions did not benefit as much as
larger institutions.

Enhancing Risk Assessment

To assess risk properly, case managers are responsible for maintaining an
informed position on their caseloads. Case managers:

•    review reports of examination and correspondence,
•    process applications,
•    review press releases and other media sources,
•    consider exception reports generated by offsite monitoring systems, and
•    communicate with regulatory counterparts and financial institution officials.




                                                       8
For large institutions, holding companies, and chain organizations, case
managers are also required to prepare comprehensive quarterly offsite analysis.

One case manager said the supervision of a large holding company in her
portfolio involved as many as seven DOS staff before the implementation of the
Case Manager Program. Everyone was looking at a different piece of the
organization. For example, the Washington Office looked at the holding
company, review examiners from New York and Boston dealt with the
examination reports of the individual banks under the holding company and
processed applications. She said communication among those individuals was
virtually nonexistent. Consequently, the supervisory approach was disjointed
and inconsistent.

Conversely, under the case manager approach, she was the focal point for
supervision of the organization. Specifically, she reviewed all the examination
reports and correspondence, did the offsite analysis, and talked with the
examiners and other regulators. Consequently, when DOS management in the
Washington Office asked a question about the organization’s exposure to hedge
funds in the second half of 1998, she was able to respond quickly. Other case
managers told us about similar experiences. According to the DOS Assistant
Director of Supervision and Applications Branch, Office of Operations, case
managers should be able to provide this real time analysis.

Encouraging a More Coordinated, Proactive Strategy

Case managers provided us with examples of successful coordination activities.
They included:

•   An Atlanta case manager coordinated concurrent examinations of affiliated
    institutions located in three states. The FDIC assigned one examiner-in-
    charge to complete the examinations of institutions in Virginia,
    South Carolina, and North Carolina. The case manager considered the effort
    to be a success and thought that the approach would be tried again at other
    institutions. Moreover, the case manager said the lead bank was pleased by
    the coordinated exams because they were less burdensome.

•   In Kansas City, the case manager coordinated with OCC to request
    information from the lead bank. The case manager worked with OCC officials
    to determine the information needed from the lead bank and consolidated that
    request. More importantly, she met with OCC officials to ensure the
    regulatory agencies agreed on the findings and presented a unified position to
    the institution. In her view, the Case Manager Program fostered this type of
    interaction and ultimately reduced the regulatory burden.

•   A Chicago case manager said that she worked with OCC and the Federal
    Reserve regulators to get a state nonmember bank of a holding company to

                                             9
   take corrective actions related to Year 2000 (Y2K) issues. OCC and the
   Federal Reserve regulators talked to officials at the parent company who in
   turn agreed to fix the problems.

Improving Communication with Other Regulators

FDIC considers ongoing coordination and communication critical to effectively
meeting its risk assessment responsibilities.



                         Case Managers' Views About
                      Communication with Other Regulators

                    Relationship Good             Relationship Not Good
                    No Opinion

                               2%                  11%




                                                         87%

              Source: OIG analysis of case manager responses



Of the case managers we interviewed, 87% believed that communication and
coordination with other regulators had improved since the implementation of the
Case Manager Program. Case managers said they met or talked with other
federal regulators at least once a quarter for the LIDIs. One case manager
pointed out that the ongoing coordination with other regulators promoted
consistency among the regulators. This, in turn, resulted in a better perception of
the regulators from the banking industry.

Only 2% of case managers characterized their overall relationship with other
regulators as not good. However, some case managers said that their
relationships with individuals at other regulatory agencies were not always the
best. Case managers attributed the difficulties to “personality issues” or
concerns from primary regulators about the FDIC intruding on their “turf.” For
example, in one region, a case manager said the “turf” problems began in the
early 1990s when FDIC began exercising its back-up authority. The primary
regulator for that institution considered FDIC’s action an invasion of their “turf.”
In this instance, the case manager said it had been difficult reestablishing an
effective working relationship.



                                                   10
 Case Managers Concerned About Workload


  In order for a case manager to effectively meet his/her responsibilities, caseloads must be
  manageable.

  -Process Redesign Committee Memorandum on Case Manager Concept


Despite the overall positive view of the concept, 47% of case managers told us,
given the broad range of responsibilities, that it was difficult to do everything well
and still meet deadlines. Only 11% of case managers interviewed said that their
workload was manageable. The remaining case managers did not comment.

With Y2K reports to review and ongoing responsibility for any problem banks,
case managers concerned about workload said that it was difficult to meet all the
competing deadlines and do a quality job. Appendix IV describes the case
managers’ principal duties and responsibilities. In some regions, case managers
had to rely on staff detailed to the regional office to process safety and
soundness examination reports.

Those that raised this issue generally believed that the program needed to be
modified to ensure that case managers have the time necessary to assess risk
and focus on supervisory activities. For example, some case managers believed
it was inefficient for case managers to process applications. In their view, a case
manager should spend more time focusing on safety and soundness reports and
issues, not processing applications. Some case managers also believed that
preparing the quarterly LIDI reviews was a time consuming process that did not
add value.

Moreover, case managers said that management information systems currently
in place to support the program, such as the Banking Information Tracking
System (BITS) and the Application Tracking System (ATS), were not user
friendly. Even case managers with smaller institutions in their portfolios told us
that workload was a concern. They said smaller institutions took time because
bankers tend to call case managers more frequently for information. Case
managers said that addressing these questions, while not burdensome, took
time.




                                                        11
  Potential Increases to Workload

  Year 2000
  Some case managers were concerned about the increased workload from phase II Y2K
  testing. Case managers must review the Y2K reports. Institutions rated unsatisfactory or
  need to improve require additional work.

  Problem Banks
  Some case managers were concerned about workloads if the economy enters a downturn
  and institutions' ratings begin to fall in increased numbers. The case manager is the central
  point of contact for activities related to problem institutions. Some case managers said their
  workload would be overwhelming if there were more problem banks.



When the program was envisioned, DOS recognized that the realignment of
responsibilities from as many as four staff specialists to one generalist might
result in considerable loss of productivity during the start-up phase of the
program. Additionally, DOS thought that some loss in productivity, even
following the implementation period, might be inescapable due to the elimination
of some specialty units, particularly applications and financial analysis.
Ultimately, DOS management believed that productivity would be restored once
the case managers gain experience handling the new responsibilities.

In most regions, Regional Directors and Assistant Region Directors evaluated the
workload of the case managers. To the extent practical, regional management
tried to ensure that the workload was equitable. However, financial institutions
submit applications at their discretion and regional management cannot control
the flow. During the course of our review, the Washington Office was developing
new information systems that should streamline certain processes, especially the
Quarterly LIDI Review (QLR) process. The Kansas City and Memphis offices
were also developing a system that should assist in managing the workload.

A manageable workload was viewed as a key to the program’s success. One
member of the Process Redesign Committee told us the committee looked at
what constituted a manageable workload, but that it was an area that the
Corporation should study further. We agreed. Specifically, we recommended
that DOS study the impact of potential increases to workload and methods for
mitigating the risk that case managers would be unable to fully carry out all of
their responsibilities should events occur that would cause those increases.




                                                         12
51% of Case Managers Saw Need for Application Specialist

 Processing applications is not that difficult. It is time consuming and takes a certain amount of
 concentration.

 -Case Manager


In some regions, the case manager approach eliminated the application
specialist and assigned those duties to the case manager. Specifically, case
managers are responsible for reviewing, evaluating, and processing all
applications filed by institutions within their assigned caseloads.


                             Case Managers Views on Need for
                                  Application Specialists
                     Specialist needed       Specialist Not Needed        No Opinion


                                                 4%




                              45%                                       51%




                 Source: OIG analysis of case manager responses.

Of the case managers we interviewed, 51% interviewed thought that DOS
needed to reintroduce the application specialist. Generally, these case
managers said that they could not process applications efficiently within
established deadlines because they were not always familiar with processing
procedures – the learning curve was steep. Additionally, case managers were
concerned that they spent a disproportionate amount of their time processing
applications, some of which they considered to be strictly administrative in
nature.

  Case Managers Advocating Need for Specialists Believed:

  •   Processing applications should not be one of their primary responsibilities, although they
      recognized the need to be knowledgeable about application activity.
  •   The amount of time they spent on applications reduced the amount of time they could
      focus on other responsibilities, such as safety and soundness issues and off-site analysis.
  •   Applications took precedent over other priorities because of their statutory timeframes.
      Some said this was difficult to manage when quarterly off-site monitoring reports were due
      or other matters needed attention. In some regions, case managers relied on staff
      detailed to the region or colleagues to assist them.


                                                          13
However, 45% of the case managers we interviewed and regional management
believed that case managers were in the best position to evaluate applications
because of their knowledge of the institution.

In general, case managers said the amount of time and effort to complete an
application varied with the type of application. For example, case managers said
branch applications were relatively easy and more frequent than other types.
However, de novo applications were complex and more time consuming. In
addition, some case managers said they processed some application types so
infrequently the learning curve was not shortened. Some case managers said
that the Case Managers Procedures Manual and regional subject matter experts
were helpful tools, but it still took time to research the requirements.

Case managers did not specifically state what percentage of their time they spent
processing applications. Some case managers estimated that they spent as
much as 50% of their time on applications. We obtained a report of Case
Manager Hours from DOS’ Scheduling Hours and Reporting Package (SHARP)
system. This report listed for each region the hours of all case managers
reported by activity categories for the 2nd and 3rd quarters of 1998. According to
this report, on average, case managers are spending approximately 12% of their
time on application activities. Because many case managers we interviewed
said applications involved a lot of clerical or administrative time that case
managers may post to other activity categories, we could not conclude whether
this was an accurate indicator.

Additionally, FDIC made substantial revisions to Part 303 of FDIC’s Rules and
Regulations, which governs the filing and processing of various applications
during our review. One of the most significant features of this revised regulation
is that of expedited processing that is now available for “eligible depository
institutions.” Some case managers were not sure of the impact of these new
regulations, but others thought the new guidelines would increase the time
pressure on case managers to process applications.

The views of case managers were primarily a function of two factors:

•   Level of application activity.
•   Existence of an application specialist before the implementation of the Case
    Manager Program.




                                             14
Contrasting Views

In the San Francisco region, review examiners processed applications before the
implementation of the case manager program. None of the case managers interviewed in
San Francisco viewed applications as a major challenge, although the region processed the
second highest number of applications for the first three quarters of 1998. Case managers
in San Francisco said that their experience made them more adept at processing
applications.

Conversely, in Atlanta, many of the case managers interviewed believed it would be more
efficient to have application specialists. The Atlanta region had the most applications for the
first three quarters of 1998 and generally, case managers had little experience processing
applications before the implementation of the Case Manager Program.



Aside from detailing staff to alleviate workload pressure, a few regions have
application assistants. In Kansas City, regional management said it had worked
quite well. The Regional Director attributed a reduced error rate on applications
to the application clerk.

DOS senior management in Washington and the regional offices were aware of
the challenge that applications presented to case managers. Moreover, regional
office management acknowledged that case managers spent a lot of time
processing applications. In fact, regional management in some offices
acknowledged that with the high number of applications, a specialist might be
more efficient. Nonetheless, regional management believed that, in time, case
managers would overcome the applications learning curve.

The Case Manager Program designers knew that the FDIC would lose some
efficiency in the switch. We recognized that the level of application activity varies
and is not controlled by DOS. Moreover, we recognized that DOS officials have
considered the need for application specialists at various times. However,
because half of the case managers we interviewed were concerned about the
impact this function had on their ability to meet other responsibilities, we
recommended that DOS evaluate Regional Office best practices for managing
the fluctuating workload.




                                                      15
    Case Managers Concerned About Quarterly LIDI Review Process


Financial Institutions continue to grow in size and complexity. In this environment, integration of
timely and regular offsite monitoring into the overall risk assessment effort continues to be
extremely important.

-Case Managers Procedures Manual


The LIDI program requires quarterly analysis of the condition of companies with
consolidated total assets in insured institutions of at least $3 billion. While these
are primarily holding companies, the program includes unit banks and thrifts.
Companies in the LIDI program account for approximately 75% of the nation’s
banking and thrift assets. In order to quantify the analysis and facilitate overall
trend analysis, an offsite rating is assigned to each company. The analysis of
each company is presented in the QLR. DOS considers the LIDI program an
essential part of its risk monitoring process.


                             Concerned About the Structure of
                                         QLRs

                                 Concern     No Concern      No Opinion

                                    21%



                                                                  51%
                                 28%



               Source: OIG analysis of case manager responses

Of the case managers we interviewed, 87% prepared at least one QLR. In fact,
the case managers we interviewed were responsible for 46% of LIDIs
nationwide. Generally case managers agreed that that analysis of the large
institutions was important. Although case managers said QLR enabled them to
focus on the LIDIs, as the graph indicates, 51% of the case managers
interviewed told us they were concerned about the present structure of the QLR.

The QLR is a stand-alone document and consists of five major components:

•    Executive Summary
•    Organizational Overview
•    Financial Overview

                                                      16
•   Risk Profile
•   Supervisory Program

According to the Case Managers Procedures Manual, the monitoring and
analysis of each LIDI should be dynamic. The LIDI program should provide
timely, proactive risk profiles of institutions which, because of their size, present
the largest potential insurance risks. The QLRs should result in a comprehensive
written analyses documenting DOS views about the risk profile and supervisory
strategy for large institutions, most of which are not directly supervised by FDIC.
Finally, the LIDI program should establish a foundation upon which the
Washington Office can judge emerging regional and national trends.
                                                 There is a major commitment made to
However, case managers questioned the              prepare and review these reports in
usefulness of the QLRs as presently                the region every quarter.
structured. The first concern raised by
some case managers dealt with the amount -Case Manager
of time required to obtain the summary of
financial information and ratios, analyze the information, assess the risk, and
prepare the reports. Some case managers said that it took so much time to get
the financial data that they had very little time to spend on the analysis and
assessment of risk. Some said it was a challenge to meet the deadlines imposed
for the QLRs and do a quality job. Accordingly, some case managers said the
analysis might not be as thorough as it could be.

Secondly, case managers did not view the reports as being timely or dynamic.
Specifically, some case managers pointed out that their analysis was based on
old information. For instance, the September 30, 1998 QLRs were based on
June 30, 1998 data. Case managers stressed that the underlying financial data
was 1 to 2 quarters behind by the time DOS executives in Washington reviewed
the QLRs. Given the dynamics of the industry, case managers questioned
whether the reports were the best vehicle for communicating emerging risks to
senior officials in Washington. When Washington officials needed to know about
the risks associated with hedge fund activity – they called case managers.

Generally, case managers said they received few comments about the QLRs
from the Washington Office. In fact, some case managers were unsure who
besides regional management reviewed the detail sections of the reports. A few
viewed the reports as a writing exercise.

Generally, regional management shared the case managers’ views. In most
offices, regional management believed the QLRs needed to be streamlined.
Regional management also questioned whether the reports were that useful to
the Washington Office. In short, most thought the process needed to be
reevaluated to allow case managers time to thoroughly assess risk and
communicate that analysis in a more abbreviated format. Regional management



                                               17
and case managers discussed various suggestions aimed at streamlining and
improving the process.

Specific Case Manager Suggestions about QLR

Frequency
ü Prepare LIDI reports annually. One case manager suggested the LIDI be prepared to coincide
  with the release of the entity’s audited financial statements. Case managers further suggested
  that significant activity, such as a change in management or acquisition, could be reported on an
  exception basis.

ü Prepare LIDI reports semi-annually and only highlight changes for other quarters.

ü Prepare LIDI reports based on the institution’s composite rating. For example, prepare LIDI
  reports annually for institutions with a composite rating of 1 or 2. LIDIs with composite ratings of
  3, 4, or 5 could be done every quarter.

Structure and Content
ü Make the LIDI report a “living document”. Specifically, the LIDI report should be on a server
  or mainframe. Case managers could update the report in “real time”. Thus, DOS
  management would have access to the latest information.

ü Increase the dollar threshold for a LIDI report. For instance, one case manager suggested using
  a $10 billion threshold. This threshold would reduce the number of LIDI reports prepared each
  quarter and still focus on the institutions with the largest potential risk to the insurance fund.

ü Shorten the report prepared because senior Washington DOS management appears to focus on
  the executive summary.

Systems

ü Improve access to other regulators' systems to better leverage information available. For
  instance, case managers said that access to the Federal Reserve systems has been promised,
  but not yet realized.



Some regional offices initiated actions to improve the QLR process. For
example, Kansas City’s case managers started meeting to review the format and
content of selected reports each quarter. The intent of the meetings was to learn
from each other. Other case
                                        The purpose of the meetings was to critique not
managers suggested it would be          criticize.
beneficial to form a focus group to
discuss best practices. In              -Kansas City Case Manager
Memphis, case managers highlight
the changes from prior quarters to
facilitate and expedite regional management review.



                                                        18
Washington Office officials said they were aware of the case managers’
concerns. In fact, they had discussed many of the issues raised to us by case
managers and options for improving the process at a conference in August 1998.
The conference was for case managers who prepared LIDI reviews. Washington
Office officials told us they thought the session went well. However, some of the
case managers who attended told us they were not sure whether the conference
had resulted in any proposed or actual changes in the process. Additionally,
Washington Office officials said they reviewed the QLRs and forwarded the
executive summaries to senior DOS management. Moreover, the Case
Managers Procedures Manual describes the Washington Office responsibilities
for reviewing the QLRs.

Washington Office officials also believed case managers should not need to
spend as much preparing reports going forward because case managers were
now more familiar with the institutions in their portfolios. Additionally,
Washington Office officials said various initiatives were underway to improve the
reports and the way the reports were prepared. These new initiatives include
new data systems to track institutions and integrate several of the older FDIC
systems such as BITS. Washington officials believed these initiatives will
address many of the case managers’ concerns. Nevertheless, Washington
Office officials acknowledged that the process was evolving slower than
anticipated because coordination efforts with other federal regulators including
OCC, the Federal Reserve, and OTS was complex and time consuming.


In size, in complexity, in sensitivity to the global market place, banks today are not what they
were five years ago, and FDIC as an insurer and a supervisor must adapt accordingly, which
means we must find ways to better understand these increasingly large, complex institutions,
the businesses they conduct, and the risks they pose. We have to identify risks to the banks
– and if they are significant, deal with them. That means re-deploying and refocusing our
resources where they are needed. That means working as a team to acquire better
information about risks. That means educating and training staff so we can better understand
the changing financial landscape.

FDIC Chairman, February 4, 1999



In talking with case managers, regional office management, and Washington
Office officials, all seemed to agree about the importance of monitoring the large
insured institutions and ways for the LIDI program to evolve. However, it did not
appear that case managers knew the status of various initiatives underway to
improve the process, nor were they and regional office management certain how
Washington Office officials actually used the QLRs. These views, coupled with
previously noted views regarding timeliness of QLR data and the extent of effort
required to prepare the reports, should be of concern to DOS.

Accordingly, we recommended DOS study whether the effort required to prepare
the QLRs, in their current form, is worth the value the reports provide; or actions

                                                      19
can be taken to increase the value of the reports. Finally, given the importance
of the QLR as a vehicle for assessing risk for the megabanks, we referred this as
an area that the OIG’s Office of Audits should consider for possible further
review.


 Final Thoughts

To adapt to an interstate-banking environment and to enhance efficiency,
communication, and quality of the supervision process, DOS restructured its
safety and soundness supervision operations along the case manager concept.
Most of the case managers we interviewed viewed the program favorably. They
believed the program is enhancing the Corporation’s ability to assess and
proactively direct supervisory activity, particularly for large banking organizations.
Case managers also stated that communication and coordination with other
regulators improved since the implementation of the Case Manager Program.

However, nearly half of the case managers we interviewed said it was difficult to
effectively manage their workload because of competing responsibilities. Given
the range of responsibilities, case managers said it was increasingly difficult to do
everything well and still meet deadlines. Some case managers pointed out that
this “strain” existed in an environment with relatively few problem banks.

We realized the concerns we heard may be unique to those we interviewed.
Additionally, the concerns raised may not have been new issues; in fact, we
found that they were not. However, when the program was created, a
manageable workload was considered a critical factor in the success of the case
manager concept. We believed it was significant that nearly half of those we
interviewed were concerned about their ability to manage their workload. It was
equally important that half of the case managers believed there was a need for
an application specialist and that 51% expressed concerns about the QLR.

We recognized that DOS had several initiatives underway that may address
many of the issues raised by the case managers we interviewed. Nonetheless,
given the reliance the Corporation places upon case managers to assess risk
and coordinate supervisory activity, we recommended that DOS:

1. Study what constitutes a manageable workload for a case manager.
   Specifically, DOS should consider studying the impact of potential increases
   to workload and methods for mitigating the risk that case managers would be
   unable to fully carry out all of their responsibilities should events occur that
   would cause those increases.

2. Evaluate regional office best practices for managing the fluctuating
   applications workload.



                                               20
3. Study whether the effort required to prepare the QLRs, in their current form, is
   worth the value the reports provide; or actions can be taken to increase the
   value of the reports.

Finally, we appreciated the candor and thoroughness of the case managers and
regional management officials to whom we spoke. Our perception was that the
views we heard were reflective of individuals sincerely striving to improve how
well the Corporation assesses and deals with the risks associated with large
banking organizations. This report was provided to DOS with that same purpose
in mind.

 Corporation Response and OIG Evaluation

On March 29, 1999, the Director, DOS, provided the Corporation's written
response to a draft of this report. Overall DOS agreed with the report.
Appendix I includes DOS’s written response. The Director provided a reasonable
explanation for not implementing recommendation one and agreed with
recommendations two and three. Accordingly, DOS’s written response provides
the requisites for management decisions on all three recommendations.

Study what constitutes a manageable workload. Specifically, DOS should
consider studying the impact of potential increases to workload and
methods for mitigating the risk that case managers would be unable to fully
carry out all their responsibilities should events occur that would cause
those increases (recommendation 1). The Corporation's response explained
the current process of determining workloads. DOS “believes that the current
structure of the Program is not overly burdensome, and that regional processes
in place currently provide for proper monitoring of workload fluctuations." We
consider management’s comments responsive to the intent of the
recommendation 1.




                                             21
Appendix I

             CORPORATION COMMENTS




                         22
Appendix I

             CORPORATION COMMENTS




                         23
Appendix I

             CORPORATION COMMENTS




                         24
Appendix II


Management Response to Recommendations

This table presents management responses to recommendations in our report and the status of management decisions.
Management's written response to our report provided the information for management decisions.




                                                                   Expected         Documentation That
 Rec.                                                             Completion         Will Confirm Final    Monetary   Management Decision:
Number          Corrective Action: Taken or Planned                  Date                  Action          Benefits        Yes or No

  1      Division of Supervision (DOS) stated that it believed    N/A           DOS 3/29/99 response to   No          Yes
         that the regional processes in place currently provide                 a draft of this report.
         for proper monitoring of workload fluctuations.

  2      DOS will contact each of the eight regional offices to   12/31/99      Summary of best           No          Yes
         discuss management’s practices for monitoring and                      practices.
         addressing fluctuations in applications workload.
         Any resulting best practices identified will be
         documented and distributed to the regions.

  3      DOS’ Risk Management and Applications Section            12/31/99      Revised Case Managers     No          Yes
         has initiated a review of the current quarterly large                  Procedures Manual.
         insured depository institution reviews. DOS
         anticipates that the structure, frequency, and
         distribution of these reviews will be amended.




                                                                               25
    Appendix III



Summary Data about Case Managers Interviewed 1
                    POPULATION                          SAMPLE
                       No. of                           No. of
                       Large                            Large
           No. of      Insured              No. of Case Insured
           Case        Depository Total     Managers    Depository                Total
REGION     Managers Institutions Assets Interviewed Institutions                  Assets
                                                    (in billions)                 (in billions)
Atlanta                       22              23       822.6           9     11     302.4
Boston                        13               8       280.5           7      5     207.6
Chicago                       30              31     1,022.6           8     14     657.5
Dallas                        19               9       200.1           6      8      97.0
Kansas City                   35              14       436.7           5     11     265.3
Memphis                       17               9       215.2           5      4      97.4
New York                      26              42       840.0           6     13     290.2
San Francisco                 30              23       534.3           7      7     223.4
Total                        192             159     4,352.0          53     73   2,140.8
% of                                                                28%    46%       49%
population
Source: Case Load Summary Report as of November 10, 1998
1
    We did not test the underlying data in these reports.




                                                            26
 Appendix IV


Case Managers’ Principal Duties and Responsibilities

The following summarizes the case managers’ principal duties and
responsibilities as described in the Case Managers Procedures Manual.

Direct Supervisory Strategy

The supervisory strategy of all FDIC insured institutions is primarily driven by
statute according to their CAMELS rating, with adjustments resulting from
changes in an organization’s risk profile, structure, business strategies, or
logistical considerations. Case managers will be responsible for ensuring that
supervisory strategies for institutions within their portfolios are appropriate and
revised as needed. Therefore, case managers will have to keep abreast of
significant issues related to, or which may affect, their assigned organizations
(e.g., risk/trend related matters, accounting, reporting or regulatory changes, new
activities and products, etc). This process will require on-going coordination with
Field Office Supervisors and other regulatory agencies, as well as effective use
of offsite monitoring tools, attention to news articles and press releases, and
direct communication with financial institution management appropriate to FDIC’s
supervisory role relative to Federal Reserve Member and National banks and
federal thrift institutions.

Establish and Maintain a Dialogue with State and Federal Regulators

Case managers will establish and maintain cooperative relationships with other
state and federal supervisory agencies involved with organizations within their
caseloads. The goal of this dialogue will be to enhance proactive risk
assessment in a non-intrusive manner. Therefore, case managers must remain
cognizant that inquiries should address information important to this risk
assessment objective.

Communicate With and Respond to Bank Management and the Public

A key aspect of the case managers’ responsibilities will involve communication
with financial institution management. Communications with management of
financial institutions for which FDIC is not the primary regulator generally will be
limited to instances in which the primary federal regulator has first been
contacted. Case managers will also be responsible for responding to or
resolving questions, complaints, and inquiries from the general public.




                                               27
Review/Process Examination Reports, Applications, Investigations and
Correspondence

Case managers will perform activities related to the review, analysis and
processing of reports of examination, applications, investigations, and other
correspondence involving their caseloads. These activities will include, among
other things, preparing summary of findings, memoranda, and recommendations
for the Regional Director, as well as preparing miscellaneous correspondence
directed to the Washington Office, State Authorities, other federal regulatory
agencies, and financial institutions or holding companies.

Initiate and Develop Corrective Programs

Case managers will initiate, conduct, and participate in conferences and
meetings with other supervisory authorities and bank officials, as well as develop
informal and formal programs designed to correct deficiencies in the operations
and condition of the financial institutions under their supervision.

Coordinate with Specialty Areas and the Division of Compliance and
Consumer Affairs

Case managers will communicate and coordinate with regional specialists on
substantive issues regarding institutions within their caseloads to ensure that
risks presented by Information Systems, Trust, Accounting, Capital Markets, and
Fraud/Investigations are identified and quantified, and to ensure that a proper
supervisory action is taken to minimize risk to the deposit insurance funds.
Likewise, regular communication with counterparts within the Division of
Compliance and Consumer Affairs (DCA) will be necessary to remain cognizant
of substantive compliance or Community Reinvestment Act of 1977 issues that
may impact an institution’s expansion or consolidation plans or its overall safety
and soundness. Coordination with specialists and DCA counterparts will be
required for purposes of examination scheduling, with an emphasis on
minimizing regulatory burden.

Prepare Management Information Reports

Case managers will be involved in the preparation of a variety of reports to
ensure that senior management within FDIC (regional, divisional, and corporate-
wide) is informed of significant existing or emerging risks within their caseloads.

Perform Offsite Monitoring and Prepare Analyses

Case managers will be involved in efforts designed to meet FDIC’s offsite
monitoring and analysis goals as they relate to the assessment of risk to the
deposit insurance funds, as well as the financial condition of the individual
institutions within their caseloads. In that regard, they will analyze financial and


                                               28
other information filed or reported in accordance with regulatory requirements, as
well as information from other sources. Case managers will analyze and prepare
quarterly written assessments of the risk profiles of the larger organizations and
any other institutions exhibiting potential concern by offsite monitoring systems.

Keep Abreast of Current Economic Trends

Maintaining an awareness and understanding of economic and financial trends
that could impact the condition of institutions with their assigned caseload will be
a primary responsibility of each case manager. This may involve attendance at
industry meetings and discussions with other divisions in the Corporation,
particularly the Division of Insurance.

Participate in the Resolution of Failing Banks

Case managers may be involved in the analysis and preparation of
recommendations regarding applications by financial institutions for FDIC
financial assistance. They may also assist in the development and analysis of
financial data used to facilitate resolution transactions in failing bank/thrift
situations, as well as the development of bid lists for the Division of Resolutions
and Receiverships, as needed.

Provide Technical Guidance and Feedback

Case managers will provide technical advice and guidance to field examiners
and other case managers on special situations, examinations, and investigations,
and will provide feedback to field examiners on the quality and content of reports
of examination and investigations involving institutions in their caseloads.




                                              29
